MEMORANDUM




                                                                          -
Date: ' March 3 1,2000

To:    File I97080




                   1'


OIG Le a1 review identified possible anti-trust implications in actions that
d     a      d taken in it's cooperative agreement with NSF to administer internet address
registration. On April 14, 1997, we referred this to the anti-trust division of DOJ. We
were notified of DOJ's decision not to persue this case on March 3 1,2000. This case is
closed.
